TREASURY INSPECTOR GENERAL FOR TAX ADMINISTRATION




                    Report on Audit of Compliance With Cost
                     Accounting Standard 403, Allocation of
                            Home Office Expenses



                                         September 2005

                             Reference Number: 2005-1C-170




 This report has cleared the Treasury Inspector General for Tax Administration disclosure review process
  and information determined to be restricted from public release has been redacted from this document.



 Web Site          | http://www.tigta.gov
                                                DEPARTMENT OF THE TREASURY
                                                     WASHINGTON, D.C. 20220




TREASURY INSPECTOR GENERAL
  FOR TAX ADMINISTRATION




                                             September 29, 2005


 MEMORANDUM FOR DAVID A. GRANT
                DIRECTOR OF PROCUREMENT
                INTERNAL REVENUE SERVICE




 FROM:                           Daniel R. Devlin
                                 Assistant Inspector General for Audit (Headquarters Operations
                                 and Exempt Organizations Programs)

 SUBJECT:                        Report on Audit of Compliance With Cost Accounting Standard 403,
                                 Allocation of Home Office Expenses (Audit # 20051C0236)

 The Defense Contract Audit Agency (DCAA) examined the contractor’s cost accounting
 practices to determine whether the contractor complied with the requirements of Cost
 Accounting Standard 403, Allocation of Home Office Expenses, and any applicable Federal
 Acquisition Regulation1 Part 31 requirements during the period October 6, 2003, through
 October 5, 2004.
 According to the DCAA, the contractor complied in all material aspects with requirements of
 Cost Accounting Standard 403 during the period October 6, 2003, through October 5, 2004. The
 DCAA also reported that the contractor’s accounting system is adequate for the accumulation
 and reporting of costs under Federal Government contracts.
 The DCAA audit report was dated March 2004; however, we did not receive a copy of the report
 until August 2005. Neither the Internal Revenue Service nor the Treasury Inspector General for
 Tax Administration is shown on the DCAA report distribution list. We are transmitting the
 report to you to assist in the management of the contract and to enable the Internal Revenue
 Service to track any financial accomplishments derived from negotiations with the contractor
 based on results from the DCAA report.

 1
     48 C.F.R. pt 1-53 (2002).
                Report on Audit of Compliance With Cost Accounting Standard
                          403, Allocation of Home Office Expenses



The information in this report should not be used for purposes other than those intended without
prior consultation with the Treasury Inspector General for Tax Administration regarding their
applicability.
If you have any questions, please contact me at (202) 622-8500 or John R. Wright, Director, at
(202) 927-7077.


Attachment




                                                                                                   2
                                    NOTICE:
The Office of Inspector General for Tax Administration has no objection to the release of
this report, at the discretion of the contracting officer, to duly authorized representatives
of the contractor.
The contractor information contained in this report is proprietary information. The
restrictions of 18 U.S.C. § 1905 must be followed in releasing any information to the
public.
This report may not be released without the approval of this office, except to an agency
requesting the report for use in negotiating or administering a contract with the
contractor.
